Aaron D. Van Oort
Partner
aaron.vanoort@faegredrinker.com
+1 612 766 8138 direct

Faegre Drinker Biddle & Reath LLP
2200 Wells Fargo Center
90 South Seventh Street
Minneapolis, Minnesota 55402
+1 612 766 7000 main
+1 612 766 1600 fax

December 14, 2020
VIA ELECTRONIC FILING
Mr. Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Minnesota Sands, LLC v. County of Winona, Minnesota, No. 20-441; waiver of 14-day
waiting period

Dear Mr. Harris:
Respondent’s brief in opposition in the above-captioned case was filed on December 7,
2020. Pursuant to Supreme Court Rule 15.5, petitioners expressly waive the 14-day waiting
period for distribution of this case to the Court. We respectfully request that the Court distribute
this case on its next distribution date, which we understand is December 16, 2020, so that the
petition may be considered at the January 8, 2021 conference.
Very truly yours,

Aaron D. Van Oort
Attorney for Petitioner Minnesota Sands, LLC

